SUPREME COURT

JUN 1 6 2021
Court of Appeal, Fifth Appellate District - No. F079228

Jorge Navarrete Clerk

S267962

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

In re the Marriage of JAIMEE CAROLE and JON MARK FINLEY.

JAIMEE CAROLE FINLEY, Appellant,
v.
JON MARK FINLEY, Respondent.

The petition for review is denied.

CANTiL-SAKAUYE
Chief Justice

Filed 3/8/21 Marriage of Finley CA5

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
or ordered published for purposes of rule 8.1115._______________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT

In re the Marriage of JAIMEE CAROLE
FINLEY and JON MARK FINLEY.
JAIMEE CAROLE FINLEY,

F079228

Appellant,

(Super. Ct. No. 8001550)

v.

OPINION
JON MARK FINLEY,
Respondent.

APPEAL from a judgment of the Superior Court of Stanislaus County. Alan K.
Cassidy, Judge.
Jaimee Carole Finley, in pro. per., for Appellant.
Jon Mark Finley, in pro. per., for Respondent.
-ooOoo-

In this family law dissolution matter, Jon Mark Finley (father) and Jaimee Carole
Finley (mother) have been engaged in an ongoing custody battle over their now fiveyear-old daughter, K.F.1 Father currently has sole legal and physical custody of K.F. and
mother has supervised visitation. After a contested hearing, the trial court denied
mother’s request to modify the existing custody order. We affirm.
FACTS AND PROCEDURAL HISTORY
A.

Mother’s December 23, 2015 Requestfor Order Regarding Custody and
Visitation
Mother and father were married on August 6, 2015, and K.F. was born later the

same month. The parties resided in Stanislaus County. They separated in November
2015, and on December 22, 2015, mother filed a petition for dissolution of marriage in
Stanislaus County Superior Court.
On December 23, 2015, mother filed a request for order (RFO) on the issue of
custody of K.F. The family court held a hearing on the RFO on February 17, 2016; both
mother and father were present in court for the hearing. The same day the court, Judge
Alan Cassidy, entered, upon agreement of the parties, a findings and order after hearing
(FOAH) as to custody and visitation concerning K.F. (The record shows that father was
previously charged in Stanislaus County Superior Court, on December 11, 2014, with
committing a felony on December 6, 2014, “Battery on Spouse or Cohabitor,” namely
mother, in violation of Penal Code section 273.5, subdivision (a).)
As reflected in the FOAH, dated February 17, 2016, the court granted sole legal
custody and sole physical custody to mother. The FOAH reflected that “[t]he parties
shall arrange care, custody, and control as they can agree and, if there is no agreement,”
then “[t]he Mother shall have all non-designated time with the child” and father shall
have supervised visitation at Sierra Vista Child and Family Services (Sierra Vista). The

1

Both parties are pro per on appeal.
2.

FOAH further provided: “Neither party shall change the child’s current county of
residence from Stanislaus County, without providing the other party 45 days prior written
notice.” In addition, the court ordered the parties to participate in “child custody
counseling” and father to complete “a domestic violence course.” Finally, the court set
the matter for a review hearing on March 2, 2016.
Both mother and father were present for the March 2, 2016 review hearing
regarding the RFO filed by mother on December 23, 2015. The court, Judge Alan
Cassidy, issued the findings and order after hearing the same day, in which it renewed the
prior custody and visitation order, unchanged. The court documented father’s objection
to the order and continued the matter to August 11, 2016. Specifically, the FOAH noted:
“The matter is continued to 8/11/16 at 10:30 a.m. for long cause hearing on the Father’s
objection to the child custody order.”
B.

Father’s May 13, 2016 RFO Seeking Modification of Custody/Visitation Order
On May 13, 2016, father filed an RFO requesting a temporary emergency order.

In a declaration filed with the request, father stated that, on or about May 3, 2016, he
received an email from mother in which she wrote that the email would serve as a 45-day
written notice of her intent to relocate away from Stanislaus County, with K.F., effective
June 18, 2016. Accordingly, father sought a temporary emergency order prohibiting
mother from removing K.F. from Stanislaus County, pending a hearing on his RFO.
In his RFO of May 13, 2016, father also sought modification of the existing
custody order of March 2, 2016, which had granted sole legal and sole physical custody
to mother and supervised visitation to father. Father requested the court to grant joint
legal custody to both parents but to grant sole physical custody to father. Father noted
that following the court’s order of March 2, 2016, mother never completed a required
orientation at Sierra Vista (which failure served to preclude father from effectuating
supervised visitation at Sierra Vista, as specified in the court’s March 2, 2016 custody

3.

order). Father further noted that while he nonetheless managed to have contact with K.F.
in other settings (for example, when mother needed childcare), he had been unable to see
K.F. since mother sent him the email declaring her intention to leave the county with K.F.
Father’s RFO was received by the court on May 12, 2016, and, on the same day,
Judge Jack Jacobson granted the requested temporary emergency order. The temporary
emergency order directed mother not to change K.F.’s residence from Stanislaus County
and specified that violation of the order would result in civil or criminal penalties, or
both. The RFO, with the temporary emergency order attached, was filed immediately
thereafter, on May 13, 2016. The matter was set for hearing on June 8, 2016.
On May 18, 2016, while the parties were in court on a separate child support
matter, father’s counsel personally served mother with father’s May 13, 2016 RFO and
related documentation. On May 20, 2016, mother filed a responsive declaration to
father’s May 13, 2016 RFO. In the responsive declaration, mother stated she and K.F.
would be “out of town” at the time of the hearing on father’s RFO and that she had filed a
request to appear telephonically at the hearing. Mother noted that, on May 3, 2016, she
had provided father “with a 45 day notice to change [K.F.’s] residing address.” Mother
further stated: “According to the orders dated March 2, 2016, that was all that I needed
to do. It did not say I needed to provide a new address. I don’t feel it is safe to provide it
after [father’s] threats.” Mother also stated: “I am moving [K.F.] for her safety, to
remarry, and because [father] has not helped me financially with my baby which has put
me in a huge financial hardship, resulting in state assistance. (I have already given notice
to move out of my apartment and job. Travel arrangements have been set and it would
cause an even greater hardship to change the orders at this point.)” Mother also alleged
that father had subjected her to threats and abuse at various points.
On May 17, 2016, mother requested permission to appear by telephone at the June
8, 2016 hearing on father’s May 13, 2016 RFO. On May 26, 2016, Judge Jack Jacobson
granted mother’s request to appear by telephone for the June 8, 2016 hearing (the
4.

document memorializing the ruling noted the requestor resided out of state). The parties
were also scheduled for a hearing on a separate issue (unrelated to the custody matter) to
be held on June 15, 2016. On May 17, 2016, mother also filed a request to appear
telephonically at the June 15, 2016 hearing. In her request, mother stated she was
moving “out of state” to Texas and would be “on the road traveling to new residence.”
Mother noted she had provided “45 day notice” of her move to father, as required under
the court’s March 2, 2016 custody order.2 On June 1, 2016, Judge Jacobson granted this
request as well (the document memorializing his ruling noted the requestor resided out of
state).
The hearing on father’s May 13, 2016 RFO for modification of the March 2, 2016
custody order, was held on June 8, 2016, before Judge Alan Cassidy. Father was present
in court with counsel, while mother appeared telephonically and in pro per. Following
the hearing, on the same day, the court issued its findings and order after hearing. The
FOAH notes the court “admonished” mother regarding “the current orders” (i.e., the
temporary emergency order prohibiting mother from changing [K.F.’s] residence from
Stanislaus County). The court further “issuefd] an Order to Show Cause to [mother] to
appear on June 15, 2016, as to why she should not be sanctioned for her failure to comply
with the court orders.” The court continued the hearing on father’s May 13, 2016 RFO to
June 15, 2016, and ordered mother “to appear in person at the next hearing on June 15,
2016.” The court further stated: “[T]he minor child is ordered to be in Stanislaus County
on June 15, 2016. [Mother] is advised that her failure to comply with the court’s order
will lead to a warrant being issued.” In addition, the court rescinded any prior permission
granted to mother to appear telephonically on June 15, 2016. Finally, the court ordered

2

Mother referred to the March 2, 2016 order as the February 17, 2016 order (as the
March 2, 2016 order originated as the February 17, 2016 order).
5.

mother “to provide proof on June 15, 2016, of her completion of orientation at Sierra
Vista.”
A hearing was held on June 15, 2016, before Judge Alan Cassidy, on matters that
were continued from the June 8, 2016 hearing, including father’s RFO for modification
of child custody and visitation, the order to show cause regarding mother’s failure to
abide by the court’s temporary emergency order, and to ascertain whether K.F. had been
returned to Stanislaus County per the court’s June 8, 2016 order. Father appeared at the
June 15, 2016 hearing with counsel; mother failed to appear. The court issued a minute
order on the same day as the hearing. The minute order noted: “[Mother] contacted the
courtroom prior to the hearing to request a continuance to obtain counsel. The request for
a continuance is DENIED.” The minute order further noted: “The Court shall issue a
Warrant of Attachment for [mother], in the amount of $50,000.00, day or night service.”
Finally, the minute order noted: “Court grants SOLE LEGAL AND PHYSICAL
CUSTODY of [K.F.] ... to Respondent/Father. Court denies visitation to
Petitioner/Mother at this time.”
C.

Mother’s RFOs to Modify Child Custody and Visitation After Arrest in
Oklahoma
On October 14, 2016, mother was arrested in Oklahoma. On October 18, 2016,

law enforcement officials from Stanislaus County traveled to Oklahoma to retrieve K.F.
(who was temporarily placed in foster care) and bring her back to California. The
Stanislaus County law enforcement officials interviewed mother in Oklahoma, on
October 18, 2016. K.F. was brought back to California on October 19, 2016, where she
was reunited with father.
On October 21, 2016, mother, now represented by counsel, filed a request for
temporary emergency orders seeking temporary physical custody, care, and control of
K.F. The request was received by the court on October 18, 2016; on October 20, 2016,
the court denied the request pending a hearing and mediation; the papers were filed on
6.

October 21, 2016. Mother’s request for temporary emergency orders was accompanied
by an RFO seeking modification of the child custody and visitation order entered by the
court on June 15, 2016, in which the court had granted sole legal custody and sole
physical custody to father. In the RFO, which was filed on October 21, 2016, mother
sought both legal custody and physical custody of K.F. Mother filed declarations in
support of her request dated October 13, 2016, with one declaration specifying that she
had signed it in Salida, California. The matter was set for hearing on November 17,
2016.
On October 18, 2016, father filed a responsive declaration to mother’s RFO
regarding child custody and visitation, in which he opposed mother’s RFO to modify the
June 15, 2016 custody order. Father stated in his declaration: “I have not had physical
contact with our daughter since May 2016, when [mother] abducted her from the State of
California. I am informed and believe that despite [mother’s] declaration which she
alleged to have executed on October 13, 2016, under penalty of perjury under the laws of
the State of California that she was in Salida, California, that [mother] was out of state
with our daughter.”
On November 17, 2016, the court held a hearing on mother’s October 21, 2016
RFO; both mother and father were present with their respective counsel. The court
issued its findings and order after hearing on custody and visitation on the same day,
“based upon the agreement of the parties.” The FOAH specified that father would have
sole legal custody and sole physical custody of K.F. The order further specified that the
parties could “arrange care, custody, and control as they can agree.” Failing that, father
would have “all non-designated time with the child” and mother would have supervised
visitation at Sierra Vista.
On January 26, 2017, mother filed another RFO seeking modification of the child
custody and visitation order entered on November 17, 2016, granting sole legal and sole
physical custody to father and supervised visitation to mother. Mother sought a
7.

modification of the November 17, 2016 order to provide for joint legal custody and joint
physical custody. In a declaration filed with her RFO, mother alleged that father had
violated the November 17, 2016 order, which required both parties to complete
orientation at Sierra Vista within seven days of the order. Mother alleged that father
“took two months to complete the paperwork and register for Sierra Vista,” whereby it
had been “over 100 days” since mother had seen K.F. Mother further stated: “Sin[c]e
the last hearing, I have completely established myself locally. I am now employed in
Modesto, CA, and am now residing in Manteca, CA.” The matter was set for hearing on
March 22, 2017.
In the meantime, the court entered a judgment of dissolution in the underlying
dissolution action. As to custody and visitation arrangements, the November 17, 2016
custody and visitation order was attached to the judgment of dissolution.3
On March 17, 2017, father filed a responsive declaration to mother’s January 26,
2017 RFO, in which he opposed mother’s request for modification of the November 17,
2016 custody and visitation order. At the hearing on March 22, 2017, the court denied
mother’s modification request. The court’s FOAH stated: “Upon motion of [father], the
matter is dropped from calendar. The Court finds that there has not been a material
change of circumstance to merit modification of the current custody and visitation order.”
D.

Mother’s RFO to Modify Custody and Visitation Culminating in Contested
Hearing
On April 4, 2017, mother filed an RFO seeking to modify the November 17, 2016

child custody and visitation order as encompassed in the February 17, 2017 judgment of
dissolution. Mother requested that she be granted sole legal custody and sole physical
custody of K.F. and that father be granted supervised visitation. The matter was set for

3

The judgment appears to have been entered as a default judgment as to mother.
8.

hearing on June 21, 2017. Father filed a responsive declaration in which he opposed
mother’s request for modification of the existing custody and visitation order.
A hearing on the matter was held on June 21, 2017. Both parties were present
with their respective counsel. The court ordered the parties to mediation and set a further
hearing on July 26, 2017. Following the hearing on July 26, 2017, the court issued a
FOAH, based on the agreement of the parties, in which the court referred the matter for
“a focused Family Court Services Evaluation of limited scope,” so that documentation
and allegations presented by the parties could be investigated. The court maintained sole
legal custody and sole physical custody with father and supervised visitation with mother.
The court continued the matter to October 12, 2017, “for hearing on the Family Court
Services Evaluator’s Report.”
The court held a hearing on the matter on October 12, 2017; both parties were
present with their respective counsel. The court received the report of the family court
services evaluator. The evaluator recommended the court maintain sole legal custody
and sole physical custody with father and supervised visitation for mother but noted that
multiple relevant issues needed further exploration. The court adopted the evaluator’s
custody recommendation with a limited modification (the court permitted mother to have
a double visit with K.F. on one Saturday every month). Mother objected to the
evaluation and recommendation and the court’s adoption thereof. The matter was
therefore set for contested hearing on the issue of custody and visitation. The same day,
the court issued a FOAH regarding custody and visitation, pending the contested hearing.
The FOAH adopted the evaluator’s recommendation with the limited modification
described above. This was the operative custody order (dated October 12, 2017) at issue
in the contested hearing.4
4

The order provided that “[t]he parties shall arrange care, custody, and control as
they can agree.” The order further specified, as to visitation, that, “if there is no
agreement,” then “[t]he father shall have all non-designated time with the child,” and
9.

E.

Three-Day Contested Hearing Held (September 10-11, 2018, and January 22,
2019)
A contested hearing on the operative custody order was held over three days:

September 10, 2018, September 11, 2018, and January 22, 2019. The contested hearing
was held before Judge Alan Cassidy, who had handled the prior substantive proceedings
in the matter as well. Mother called six witnesses: herself; an expert on intimate partner
battering; a child abduction investigator from the Stanislaus County District Attorney’s
Office; K.F.’s pediatrician; a Sierra Vista staff member; and father. As for father’s case,
father testified on behalf of himself and called no other witnesses.
1. Mother’s Testimony
Mother testified that she and father started dating in May 2014. They were
married in July 2014 (the marriage was later found to be invalid) and lived together in
Turlock. Father committed domestic violence against mother on December 6, 2014,
whereupon, on December 7, 2014, they separated. Three weeks later mother discovered
she was pregnant. Subsequently, in August 2015, mother and father got remarried; the
second marriage was legal. K.F. was born later that month. Mother then moved out on
November 1, 2015. On December 22, 2015, she filed a petition for dissolution of the
marriage.
While mother was on the witness stand, the court stepped in to add that custody
orders in the matter were issued on March 2, 2016; the court went on to describe the
orders. Pursuant to the orders, mother had all undesignated time with K.F. and father had
supervised visits at Sierra Vista; the order further provided that w[n]either party shall
change the child’s current county [of] residence from Stanislaus County without

mother would have supervised visits with the child “at the discretion of the designated
supervisor.” The order did not otherwise restrict the number of supervised visits mother
could have with the child. In addition, the order provided that mother was permitted to
have a double visit with the child once a month, on a Saturday.
10.

providing the other party 45 days prior written notice.” At the time mother had sole legal
and physical custody of K.F.
The court then went over the procedural history of the case starting in May 2016,
when father obtained a temporary emergency order prohibiting removal of the child from
Stanislaus County, and filed a request to modify the then-existing custody order, which
request was set for hearing on June 8, 2016. The court stated: “On May 16th [mother]
filed two requests for telephone appearances. They were both considered by Judge
Jacobson. And in it she states on the front page of her request for telephone appearance
... moving out of state. Will be on the road traveling to new residence. 45-days notice
provided to [father].” The court added that Judge Jacobson granted the requests for
telephone appearances.
The court then described what occurred at the June 8, 2016 hearing on father’s
request for modification, at which mother appeared by telephone and father appeared in
person with counsel. The court observed: “The Minute Order from that appearance date
reads, ‘[Mother] is admonished as to the current orders. [Mother] is ordered to appear in
person at the next hearing on June 15th, 2016. The minor child is ordered to be in
Stanislaus County on June 15th, 2016. [Mother] is advised that her failure to comply
with the court order will lead to a warrant being issued.’ [1] Now, this is noted as
paragraph one. [1J] Paragraph two. ‘The court issues an order to [show] cause [mother]
to appear on June 15, 2016 as to why she should not be sanctioned for her failure to
comply with the court order.’ [%\ Three. ‘[Mother’s] request to appear telephonically on
June 15th is rescinded.’ ffl] Four. ‘[Mother] is ordered to provide proof on June 15th,
2016 of her completion of the orientation at Sierra Vista.’”
The court further noted that the record showed mother had been served in court,
on May 18, 2016, with the papers regarding father’s request for a temporary emergency
order prohibiting removal of K.F. from Stanislaus County. The court then described what
occurred at the June 15, 2016 hearing. The court noted that mother called the courtroom
11.

prior to the June 15, 2016 hearing to request a continuance to obtain counsel, which
continuance was denied. The court also observed that a warrant of attachment was issued
for mother in the amount of $50,000, day or night service, and that the court granted sole
legal and physical custody of K.F. to father and denied visitation to mother. Finally, the
court turned to mother’s trial counsel and stated: “So with that background [as] to where
we are. If you would like to inquire of [mother] about those facts.”
Mother testified she had sent an email to father on May 3, 2016, stating she was
leaving with K.F. Mother testified the email served as 45-day notice to father of
mother’s intention to change K.F.’s county of residence, as required by the then-existing
custody order. Mother testified she believed she legitimately could leave the county with
K.F. upon providing the above-described notice. In the end, mother ended up leaving the
county about a week before the 45 days were up. Mother said father subjected her to
numerous threats upon receiving the notice. For example, father said mother would
never have K.F. again and would never see K.F. again. Mother believed K.F.’s life was
in danger. Mother was thinking of father’s prior acts of domestic violence against
mother.
Mother testified she was served with paperwork regarding father’s requests to
change custody in response to her notice to him to the effect she was leaving with K.F.
Mother did not recall seeing, in that paperwork, any order prohibiting her from taking the
child out of Stanislaus County. In fact, when mother made the requests to appear by
telephone at the related hearings, mother disclosed the fact that she was relocating out of
state. Mother obtained permission to appear by telephone at the hearings. And mother
appeared by telephone at the June 8, 2016 hearing, before Judge Cassidy. Mother was in
Texas and Judge Cassidy ordered her to return to California for a hearing on June 15,
2016. Judge Cassidy told her he would issue a warrant should she fail to return. Mother
was not able to return to California as she had no money and no way to get back. Mother
made attempts to secure counsel to appear on her behalf at the June 15, 2016 hearing but
12.

was unsuccessful. Mother paid one attorney for a consultation, but that attorney was
unavailable to appear on the requisite date. Mother called the court on June 15, 2016, for
a continuance to enable her to find counsel, however, her request for a continuance was
denied. Thereafter, mother continued to make efforts to hire an attorney, but was
unsuccessful as she was out of funds.
Mother testified that before she left California, father made several threats.
Mother filed a police report regarding the threats. Mother made several calls to the
district attorney’s office in connection with her police report. Mother was also working
with the district attorney’s office in an effort to file a “good cause” report with the court.
Eventually, on September 28, 2016, someone at the district attorney’s office told mother
a felony arrest warrant had been issued for her, for child abduction. Mother then talked
to Investigator Cristina Magana, who was with the child abduction unit of the district
attorney’s office. Magana told mother that Magana had been looking for mother for the
last four months. Mother hired an attorney the very next day to represent her in both the
family and the criminal matter. Mother told the attorney to put the family law matter on
calendar immediately.
In the meantime, mother was arrested in Oklahoma as she was driving to
McDonald’s with K.F. Mother gave a statement to Investigator Magana, who had come
out to Oklahoma to interview mother. After 11 days, mother was returned to California
to face criminal charges related to child abduction. At that point, in October 2016, the
custody order in effect precluded any visitation for mother; that was subsequently
changed, in November 2016, to allow mother to have supervised visits at Sierra Vista.
Mother completed her orientation with Sierra Vista within seven days as ordered by the
court. Mother tried to see K.F. as soon as possible but did not see her until February 1,
2017, through no fault of her own. Mother tried to see K.F. as much as possible
thereafter, but the visits were not always “accepted.”

13.

The existing custody order permitted mother to see K.F. “one Saturday a month
[for a] double visit.” Mother explained visits were “normally 45 minutes,” but mother
was permitted to see K.F. for “an hour and a half.” However, mother had not been able
to see the child every month despite her efforts to do so; several visits were denied.
Counsel asked mother to describe the process of setting up visitation at Sierra Vista.
Mother testified: “I call Sierra Vista and I ask for an appointment. They have to call
[father] to see that he can make it. And then they call - they call me back if he denies it
... H] [a]nd to reschedule another.” Father frequently denied visitation. Counsel asked
mother: “From November 17th when the order was made, 2016, November 17th, 2016,
how many hours have you visited with your child?” Mother responded: “About 24.”
Counsel asked: “Would you like to visit more with your child?” Mother replied: “Yes.”
Mother noted that her bond with K.F. had changed over time given the limited visitation.
Mother now had to regularly inform K.F. that mother was K.F.’s mother because K.F.
was confused on the issue.
Mother’s counsel circled back to question mother again about the period when
mother left California in May 2016. Counsel showed mother the court filings father
made at the time to obtain an emergency order prohibiting mother from changing
mother’s residence out of Stanislaus County and to obtain modification of the existing
custody order. Mother said the paperwork looked familiar to her. Mother said she was in
the court on May 18, 2016, for a hearing on a child support issue; that day father’s
counsel handed mother a packet of paperwork. Mother testified the paperwork provided
by father’s counsel did not contain the order signed by Judge Jacobson to the effect that
mother shall not change the residence of K.F. Mother testified that when she left
California, she was not in receipt of Judge Jacobson’s order. Mother’s counsel then had
the following exchange with the court:
“[Mother’s Counsel]:

I would ask the Court to take judicial notice of
the family law file filing May 18, 2016. It’s a
14.

Proof of Service where [father’s counsel] signed
under penalty of perjury that she served this
packet. And she lists the things that she served.
One was a request for order. One was a
declaration. But nowhere on this is an order
listed. I would like the Court to take judicial
notice.
“THE COURT:

I’ll take judicial notice that’s what it says. And
I’ll also take judicial notice that that order is
physically attached to the Request for Order
that you’re making reference to.”

After mother was extradited from Oklahoma, mother remained in California for a
year, living in Salida in Stanislaus County, before relocating to Utah in October 2017.
Mother worked as an insurance agent the entire time she was in California. Mother made
efforts to increase visitation and to change visitation to unsupervised visitation away from
Sierra Vista. In Utah, mother worked as a payroll clerk for a company; she had been
employed there for a year.
Mother had the following exchange with counsel at the end of her testimony:
“Q-

If this Court were to allow you to visit your child in Utah,
how would you assure the Court that you would bring her
back to [father] when it’s his time to see the child?

“A.

I mean, I wouldn’t go through this again.

ra - m
“Q.

Do you have the means to bring her back to California when
the Court orders you to?

“A.

Yes.

ra - m
“Q.

... [I]fthe Court says you can see [K.F.] away from Sierra
Vista but you have to live in California and you have to stay
in California, would you do that?

“A.

Yes.”

15.

“Q.

Okay, [f] Do you think that over the last amount of time
since you’ve been visiting with your daughter at the Sierra
Vista[,] do you in your opinion for yourself, is that a
sufficient amount of time to help raise your child?

“A.

No.”

2. Testimony of District Attorney Criminal Investigator Cristina
Magana
Mother called Stanislaus County District Attorney’s Office Criminal Investigator
Cristina Magana. As part of her duties, Magana, a peace officer, worked with the child
abduction unit of the district attorney’s office. Magana testified that father sought the
assistance of the child abduction unit, whereupon Magana was assigned to the matter and
began an investigation. Magana discovered that the body attachment warrant issued by
Judge Cassidy would not “show up in the national database,” and would not be effective
outside of California. Accordingly, around September 8, 2016, Magana secured an arrest
warrant that was entered into the national database and would immediately be effective
nationwide.
Thereafter, on September 27, 2016, mother reached Magana on the telephone.
Magana testified: “Her phone call to me was regarding completing a good cause report
and to be able to get back on the calendar for her [body attachment] warrant.” Magana
explained that “[a] good cause report is a defense for the person taking the child,” in the
case of criminal charges against that person. Mother told Magana she was seeking a
good cause report on the advice of an attorney.
During the phone call, Magana repeatedly asked mother for mother’s contact
information, but mother refused to provide it. Mother’s tone was “careless” during the
discussion; mother just wanted to focus on getting a good cause report. Magana testified:
“At one point [mother] told me that she didn’t want to tell me her location unless I
guaranteed her that I wouldn’t send somebody out to find her and arrest her for the
warrant that Judge Cassidy had issued for her and that I wouldn’t take her baby.” In a

16.

subsequent phone call to the district attorney’s office, mother provided a receptionist with
a physical address in Salida, California, and a phone number with a local area code.
Magana determined the address was invalid and the phone number was actually father’s
phone number.
On October 14, 2016, Magana was informed that mother had been arrested in
Oklahoma. Magana flew out to Oklahoma on October 18, 2016. That same day, Magana
interviewed mother. Mother told Magana that she had left California because she was a
victim of domestic violence at the hands of father and father had threatened her. Mother
also said she was trying to get her matter back on calendar to get it resolved.
K.F. had been in foster care since mother’s arrest. On October 19, 2016, Magana
brought K.F. back to California to father. K.F. did not display any fear and Magana did
not have any difficulties flying with her. Father met them at the Sacramento airport.
Magana observed the interaction between K.F. and father. Magana testified: “Dad was
very happy, in tears. And the baby seemed to take very well to him as well.”
Magana also investigated father to some extent. Magana testified: “I had found
that there had been domestic violence that had been sometime past.” On crossexamination, Magana was asked by father’s counsel: “What was the purpose of your
investigating his criminal history?” Magana responded: “When I do child abduction
cases, I look at all potential reasons as to why the mother might flee. And it may be
domestic violence, in which case when I reach out to those females, or a male, I
essentially advise them of the good cause if there is a valid reason as to why they have
left the area to then try to proceed with them and get them to come to court.” Father’s
counsel then asked Magana: “Okay. Did you explore the possibility of placing the child
in foster care rather than returning [her] into the custody of the father.” Magana
answered: “I didn’t feel I needed to.” Magana followed up with father and father’s
girlfriend to inquire into K.F.’s welfare. Magana did not have any concerns about K.F.
remaining with father. Magana subsequently clarified she was under court orders to
17.

bring K.F. to California, and hand her into father’s custody. Magana said she did not
question the court’s order.
The court, for its part, also briefly questioned Magana about her interview of
mother in Oklahoma. Magana did not recall whether mother acknowledged receipt of the
court order prohibiting her from removing K.F. from Stanislaus County. Mother did tell
Magana that Judge Cassidy had ordered mother, at a hearing on June 8, 2016, to return to
California and appear in person at the June 15, 2016 hearing. Magana testified that she
had queried mother about her failure to appear at the June 15, 2016 hearing. Specifically,
Magana said: “I had asked [mother] why she had taken so long to get back into court
after she had failed to appear at the June 15th hearing. And she essentially told me
[whether] I didn’t think she had done enough already considering her divorce and all the
child custody issues that she was having.” The court asked Magana: “So did she relate
to you that was - she felt justified [in] not returning because she had done enough?”
Magana responded: “Correct.”
3. Testimony of Jessica Bush, Sierra Vista Staff Member
Jessica Bush, a program assistant and supervised visit facilitator at Sierra Vista,
testified as a witness in mother’s case. Bush was familiar with the matter and both
parties. Bush testified that father underwent orientation at Sierra Vista on January 17,
2017. The first child visit in the matter occurred on February 2, 2017. Bush said mother
and the child enjoyed their visits together.
4. Testimony of Mother’s Expert Witness on Intimate Partner Battering
Dr. Linda Barnard testified as an expert witness on intimate partner battering in
mother’s case. Dr. Barnard testified that domestic violence is caused by the perpetrator’s
need to exercise “power and control” over the other person in a relationship. She testified
use of threats is one aspect of the way in which the abuser exerts power and control. She
testified the pattern often persists even after the relationship has ended, because the

18.

abuser does not want to lose control even if the other person leaves. The victim becomes
more desperate, over time, to stay safe and to figure out ways to get away from the
abuser.
Dr. Barnard testified that victims of domestic violence experience “low self­
esteem, depression, anxiety, and many times posttraumatic stress disorder.”
Communication with the abuser can act like a trigger for the victim. Dr. Barnard
testified: “[Victims] are hypervigilant about scanning for trauma. So they may have a
heightened sense of danger as part of the trauma response so that something they see that
might not be to someone else a traumatic or threatening event may be threatening to them
because they have that heightened sense of danger that they’ve learned from their past
experience.” Children who are exposed to domestic violence in any form also
consequently develop trauma responses. A victim of domestic violence, who interprets
communications from the abuser as a threat, may leave with her child to put distance
between herself and the abuser.
5. Testimony of Minor’s Pediatrician, Dr. Liza Marie Pham
After K.F. was returned to California and placed in father’s custody, she was seen
by pediatrician Dr. Liza Marie Pham of Kaiser Permanente. Mother called Dr. Pham as a
witness in her case. Dr. Pham performed K.F.’s “18-month physical” on March 14, 2017.
This was K.F.’s first visit to Dr. Pham; Dr. Pham became K.F.’s primary care provider at
that point. Dr. Pham found K.F. to be a normal, healthy child.
Dr. Pham was asked, with reference to a medical record, about K.F. being seen by
another Kaiser Permanente medical provider, Dr. Indu Gupta, on July 13, 2017. Dr.
Gupta documented that K.F. had a possible vaginal tear. During K.F.’s earlier, 18-month
physical, Dr. Pham had not noted a vaginal tear. However, Dr. Pham emphasized she did
not normally inspect the genitals during these physicals “unless there was a concern” of
some sort, and no concern was brought to her attention in K.F.’s case.

19.

Dr. Pham was still K.F.’s pediatrician at the time of her testimony. She had seen
K.F. for a physical as recently as the prior week. Dr. Pham had no concerns regarding
K.F.’s overall health and well-being.
6. Father’s Testimony
Father testified that, at the time of the contested hearing, K.F. was three years old
and was attending a full-day preschool program, five days a week. Father had K.F. “full
time,” while mother saw K.F. “for an hour and a half once a month at Sierra Vista.” This
arrangement had been in effect for at least “[a] year and a half,” or so. Father testified
that he wanted to maintain the existing child custody and visitation arrangement. He
testified he had cooperated with scheduling visits for mother at Sierra Vista and intended
to continue to cooperate in that regard. Father acknowledged that at the beginning of the
existing custody arrangement, he had canceled visits at Sierra Vista on various occasions.
For example, he canceled a visit in February 2017, because he was going to be out of
town. Then, in March 2017, he canceled a visit because of his work schedule. He
canceled another visit in March 2017, because K.F. was sick.
Father noted that when K.F. was first returned to him, she was very afraid of men
and strangers. Over time, that fear had subsided. Regarding the vaginal tear diagnosed
on K.F. at Kaiser Permanente, father said that determination was not made by Dr. Pham,
K.F.’s regular doctor, but by another Kaiser physician who was filling in for Dr. Pham.
Father was in the room when the physician made her observation. Father explained:
“The reason we took [K.F.] to the doctor was because she was having night terrors for
months, and we weren’t sure the reason for it. And so we took her to the doctor. [1]
And after we described what [K.F.] was going through, she asked if she could take a look
at her physically. And that’s when she noticed the tear or she said it was a tear.”
Mother’s counsel asked father: “Isn’t it true though that the tear was observed by a
doctor some ten months after you brought the child back or had the child back in your

20.

custody? The tear was noticed some ten months later?” Father responded: “She said it
was an old tear.”
Regarding the time period before mother took K.F. out of state, father recalled
receiving an email from mother in which she gave him notice that she was moving the
child’s residence. Father turned the email over to his attorney, and they filed paperwork
in court to prevent that. Father denied threatening mother and sending her threatening
texts. Father pleaded no contest to domestic violence charges involving him and mother.
Father testified mother’s report was fabricated, the charges were false, and he only
pleaded to the charges because the case was taking too long and was interfering with his
work. However, father acknowledged there was physical contact between him and
mother during the incident underlying the charges. Father said he did not trust mother
because she fabricated the report that caused him to be arrested for domestic violence.
Prior to mother leaving the state with the child, father did not have any concerns
about her fitness as a mother. However, at this point, father was concerned about mother
having unsupervised visits with K.F. because mother could “run away with [K.F.] again.”
Father was, however, willing for mother to have visits with K.F. under the supervision of
father’s parents. Father’s parents were agreeable to supervising mother’s visits with K.F.
Father believed it would be feasible for mother to visit with K.F. “for a few hours once a
month on a Saturday.” Father clarified that after a few more months at Sierra Vista,
mother could switch to seeing K.F. for “six hours on a Saturday,” under the supervision
of father’s parents. Father also said that he could see mother having unsupervised time
with K.F. “down the road.”
7. Exhibits
During the contested hearing, mother moved several exhibits, including relevant
records from the trial court’s docket, into evidence.

21.

(a) Minor’s Medical Records
Mother’s Exhibits B and C consisted of K.F.’s medical records from Kaiser
Permanente in Modesto. The records reflected that on July 13, 2017, K.F. was seen by
Dr. Gupta, for a “behavioral problem.” Dr. Gupta documented the history at the time as
follows: “Biological mom kidnapped [K.F.] at the end of May 2016 (10 mo). Was found
in October 2016 (15 mo). Came back with bad diaper rash, very fearful. She is very
fearful with males—won’t go to anyone except dad. Doesn’t like stranger. She used to
love baths, after getting her back, would scream when getting in the tub. Wakes up 3-4
times a night wanting milk. Sometimes wakes up screaming with eyes closed. Bio mom
now has supervised visits at Sierra Vista, nightmares more common after visiting mom.”
Dr. Gupta conducted a genital-urinary examination. With respect to this examination,
she noted: “There is a well-healed vaginal tear on left inferior margin. Otherwise normal
female external genitalia.” Dr. Gupta noted: “[AJdvised [family] to have evidentiary
exam done. There is no way that I am aware of to say when or exactly how tear
occurred, and sexual abuse cannot be ruled out. I advised taking patient to Doctors
Medical Center for evidentiary exam. They will not be able to date or find DNA, but
STD testing should be done with chain of evidence.” Dr. Gupta further noted she had
provided a “psych referral for separation and attachment issues.” Finally, Dr. Gupta
noted: “CPS called 6 times—4 times they hung up/call dropped, twice I left my
information, agent on call has yet to call me back 2 hours later.”
(b) Records Pertaining to Mother’s Criminal Matter
Mother’s Exhibits D and E contained records of a criminal case filed against
mother on September 8, 2016. A criminal complaint filed in the Stanislaus County
Superior Court alleged as follows: “On or about and between June 15, 2016 through
September 1, 2016, defendant(s) did commit a Felony, CHILD STEALING, a violation
of Section 278 of the California Penal Code, in that the defendant(s) did unlawfully,
maliciously, and not having a right of custody, take, entice away, detain and conceal a
22.

minor child, to wit, [K.F.], NINE (9) MONTHS OF AGE, with intent then and there to
detain and conceal such minor child from the person having the lawful charge of such
child.” On March 20, 2017, mother reached a plea agreement whereby she conditionally
pleaded no contest to “willfully and unlawfully disobeying a lawful court order issued by
Judge Cassidy” in the family law matter, in violation of Penal Code section 166,
subdivision (a)(4). The child stealing count was dismissed. The remaining count was to
be dismissed as well, if mother avoided any new law violations and abided by all court
orders, including those in a family law case, for one year. A protective order requiring
mother to stay away from father for that duration would also be issued. On March 20,
2018, the case against mother was dismissed.
(c) Records Pertaining to Father’s Criminal Matter
Mother’s Exhibit D contained records pertaining to a criminal case filed against
father on December 11, 2014. A criminal complaint filed in the Stanislaus County
Superior Court alleged as follows: “On or about December 6, 2014, defendant(s) did
commit a felony, BATTERY ON SPOUSE OR COHABITOR [in] violation of Section
273.5 [, subdivision] (a) of the California Penal Code, in that the defendant(s) did
willfully, unlawfully, and feloniously inflict a corporal injury resulting in a traumatic
condition upon JAIMEE FINLEY, who was then and there the spouse of the said
defendant.” On June 5, 2015, father pleaded no contest to a misdemeanor domestic
violence charge under Penal Code section 243, subdivision (e)(1) (battery on a spouse,
cohabitant, or coparent). Father was sentenced to probation.

/

On June 5, 2015, a domestic violence criminal protective order, under Penal Code
section 136.2, was issued as a condition of father’s probation in the criminal case.
Pursuant to the criminal protective order, father was ordered to not “harass, strike,
threaten, assault (sexually or otherwise), follow, stalk, molest... or block [the]
movements of the protected [person],” namely mother. The protective order was to stay
in effect for a period of three years from the date of issuance.
23.

(d) Records from Sierra Vista
Mother’s Exhibits I, J, and K consisted of visitation records from Sierra Vista.
Visitation records for 2017-2018 from Sierra Vista showed father or his wife had, on
multiple occasions over the course of that period, canceled visitation appointments made
by mother, indicated K.F. was not available on dates requested by mother, or not
confirmed visits requested by mother. The records also revealed that mother and K.F.
had positive, loving interactions during their visits.
F.

Trial Court's Custody Decision After Contested Hearing
During the contested hearing, the trial court framed the question it had to decide.

The court said: “[T]he big issue here really and truly is the Court is weighing the
abduction of the child, removing from the State of California by [mother], and the harm
that she has of subjecting the child to because of that, [f] The big question is what
justification, if any, there may have been. That will be one aspect of [mother’s] battered
woman’s syndrome theory. And whether or not the Court should find any mitigating
information as a result of that balanced against the issue of [domestic violence on the part
of father].”
At the conclusion of the evidentiary phase of the contested hearing, the attorneys
for both sides elected not to present closing arguments; instead, the attorneys submitted
closing briefs. Thereafter, on March 11, 2019, the court issued a statement of decision
(decision). The decision set forth the court’s reasoning and final ruling on the matter and
was incorporated into a minute order. The court ruled: “[Mother’s] request to modify the
current custody order is denied.” Mother now appeals from that ruling or final decision.
In its statement of decision, the court extensively detailed, based on “[t]he Court
file and evidence adduced at the contested hearing,” the procedural history of the matter
as well as the testimony presented at the contested hearing. We will not reproduce those
parts of the statement of decision here. However, we will summarize below the court’s
reasoning and determinations, as set forth in the statement of decision:
24.

“The matter came before the Court for a contested hearing based on
[mother’s] Request for Order filed April 4, 2017, requesting change in the
existing custody orders. The matter proceeded to custody mediation with
Mr. Trent Tilby, the assigned child custody recommending counselor. The
parties agreed to take part in a Family Services Custody Evaluation which
was completed^] and the generated report was filed with the Courtfi] on
October 11, 2017. The filed report recommended minimal changes in the
existing order, but to give Petitioner/Mother the opportunity to have two
supervised visits in a given weekend, as she has to travel from Utah to take
part in the visits. At [mother’s] request, the matter was set for this
contested hearing on her ongoing request to modify existing custody orders.
At issue are the [mother’s] actions occurring between May and October,
2016. ra ... HI]
“The primary thrust of [mother’s] justification to modify the existing
custody order is that she did no wrong in leaving the state with the child,
she did no wrong when she did not return the child to Stanislaus County
when ordered to do so on June 8, 2016, and that even if it was wrong, it was
justified. The Court finds no merit in any of these arguments.
“[Father’s] RFO and emergency orders were treated as a single
document by the Court. The Court notes a duly executed proof of service
showing that [mother] was personally served with the RFO. The Court
further notes that in her Responsive Declaration to the RFO, [mother]
specifically responds to the directive to remain in the state, as she notes that
her travel arrangements have already been made and it would be too much
trouble to change them. The Court finds that [mother] was served with the
emergency order directing that she not remove the child from the state and
absconded with the child in contradiction to that order.
“Even to assume for the sake of argument that [mother] was not
served with the emergency order that she not remove the child from
Stanislaus County, she was clearly and unequivocally ordered on June 8,
2016, that she was to be in court on June 15, 2016 and that the child was to
be in Stanislaus County on that same date. [Mother] disobeyed these
orders. Instead she chose to move the child from her stated location in
Texas, to the neighboring state of Oklahoma. All the while seeking to
avoid her responsibility to this Court by trying to retain counsel who might
run interference for her in her absence and trying to convince Investigator
Magana that what she was doing was justified and trying to gain her
assistance, while simultaneously lying to the Investigator and concealing
information from her.

25.

“Even if it were found that [mother] had not been properly served
with the emergency order that she not remove the child from Stanislaus
County, she further engaged in child abduction when she did not return the
child to Stanislaus County by June 15, 2016, ran from law enforcement and
was finally taken in to custody four months later and the child was returned
in the protective custody of the District Attorney’s Child Abduction Unit.
“As to the argument that [mother] was justified in her abduction of
the child because of the conduct of the [father], this Court is fully aware of
the substantial issues that [father] presents. It is for that reason that the
Court had ordered, prior to the abduction, [father] have limited visitation
with the child. It was for his past conduct that he had suffered a
misdemeanor conviction for domestic violence. However, those failings do
not then put [mother] above the law and allow her to be excused from the
demands of the law. This Court and the criminal court continued to stand
ready to offer [mother] further relief if [father] had continued in his past
conduct, and that, was the path that [mother] should have taken, not fleeing
the jurisdiction with the child. [Mother’s] prosecution of this case clearly
demonstrates that she has not yet gained an understanding of the danger
that she put her child in, her responsibility for that act and her failure to do
anything but allow time to pass to show she has rehabilitated herself and no
longer poses a threat to this child.
“Accordingly, [mother’s] request to modify the current custody
order is denied.”
DISCUSSION
Mother is proceeding in pro per on appeal (as is father). Mother’s opening brief
raises multiple issues in a confusing and scattershot manner; her arguments are neither
properly developed, nor are they supported by citations to appropriate authorities. We
will address the arguments to the extent that we can reasonably discern them.
I.

The Scope of the Contested Hearing
Mother contends the trial court erred in not considering the matter at issue in the

contested hearing to be a move-away determination. Mother contends the parties agreed
the contested issue was a move-away determination and consequently the court erred in
not treating it as such.

26.

The question of the scope of the contested hearing was addressed by the court and
the parties on the first day of the contested hearing. Mother’s counsel informed the court
that mother would ask for a ruling allowing her to move the child to Utah, where mother
was living at the time. Mother’s counsel noted: “And so I think that whatever the
Court’s ruling is, that we should not be precluded from asking for that during this
hearing. We believe that’s what this hearing is, and we believe it’s been sufficient notice
on all parties, including the Court, to make that determination.” Father’s counsel
objected on grounds that the contesting hearing was “the result of the filing of a request
for order by [mother] when she was pro per, that filing being made on April 4th, 2017.”
Father’s counsel noted: “The relief that [mother] sought with that filing on April 4th,
2017 was sole legal and sole physical custody [for mother,] with supervised visitation [to
father,] until [his] restraining orders expire, [f] That is the formal request that [mother]
made in the moving papers which set this matter into motion. There has not been an
amended request for order seeking other relief from this court. Admittedly there have
been a number of declarations and other statements made, but the operational request for
order was filed on April 4th, 2017. The relief sought at that time was sole legal, sole
physical custody to mother with supervised visitation to father until a restraining order
expired.”
The court concluded: “It is from the request [for] order on April 4, 2017 that gave
rise to the evaluation by [the mediator], which then set the matter for a contested hearing.
Actually, I guess this was back in April and has continued over to today, [f] So, again,
the request for the Court to consider a move away order has been unnoticed and will not
be considered by the Court at this time.”
The Court correctly noted that the contested hearing was the result of mother’s
RFO dated April 4, 2017, which RFO did not request a move-away order. In the
operational RFO, mother only requested modification of the existing custody order to

27.

grant sole legal custody and sole physical custody of K.F. to mother and supervised
visitation to father until his restraining order expired.
Mother now argues, “if [father] does not have an issue with sharing custody in
Utah, why does the superior court?” However, the record shows that father objected to
characterizing the contested hearing as a move-away determination. Mother has provided
no additional argument, record citations, or citations to authority to establish the court’s
determination of the scope of the hearing was erroneous. Accordingly, we reject
mother’s contention that the court erred in this regard.
II.

Court’s Evidentiary Rulings
Mother next challenges a number of evidentiary rulings made by the family court

with respect to the contested hearing. We will address mother’s evidentiary challenges in
series. We review the family court’s evidentiary rulings for abuse of discretion. {People
v. Thompson (2010) 49 Cal.4th 79, 128; In re Marriage of Dupre (2005) 127 Cal.App.4th
1517, 1525.) It is mother’s burden as appellant to demonstrate not only that the family
court’s evidentiary rulings were an abuse of discretion, but also that any such errors were
prejudicial. {Christ v. Schwartz (2016) 2 Cal.App.5th 440, 446-447 [appellants must
“show that it is reasonably probable that they would have received a more favorable
result... had the error not occurred”].)
A. Deposition of Oklahoma Department of Human Services Case Worker
Mother argues the trial court erroneously excluded the deposition of Liz
Henninger, an Oklahoma Department of Human Services case worker. While the court
was discussing the parties’ motions in limine on the first day of the contested hearing,
mother’s counsel asked the court to admit into evidence the transcript of the deposition of
Liz Henninger. When mother was arrested in Oklahoma, Henninger took custody of
K.F., temporarily placed her in foster care, and handed her over to Stanislaus County
District Attorney’s Office Investigator Cristina Magana for return to California.

28.

Mother’s counsel contended that Liz Henninger’s deposition testimony was
relevant for showing K.F. was in good condition when Henninger took custody of her,
following mother’s arrest in Oklahoma. Mother’s counsel stated: “Liz Henninger
observed the baby, did a review of the child, looked at the body without a diaper to see if
there was any abuse or any problems, and found that there was no diaper rash, there was
no issues, and the child was in otherwise good health. ”5 In response, father’s counsel
stated: “I am willing to remove the allegation that when the minor child was returned
from Oklahoma to California that she was in some sort of a poor condition. I’m willing
to take that off the table so we can just address the issue of a child sharing arrangement
that is in the best interest of this child.” The court ultimately ruled: “By offer of [father’s
counsel], [father] shall not pursue what the physical condition of the child was when the
child was received by CPS in the State of California. The Court no longer finds relevant
the deposition testimony of Ms. Henninger.”
Mother’s argument to the effect that the court’s ruling was erroneous consists of
three sentences. Mother contends Henninger’s deposition testimony was erroneously
excluded because it would have shown mother was not a threat to the child. We are not
persuaded by mother’s argument, given the relevant record summarized above. We
conclude the court did not abuse its discretion in excluding Henninger’s deposition
testimony. Furthermore, even were we to assume error in this regard, mother has not
shown prejudice.

5

In her deposition, Liz Henninger testified that she changed K.F.’s diaper when she
first received the child. Henninger stated: “I remember [K.F.] was in a dress. I don’t
recall removing her dress, but I was able to visually see, like, her stomach. Because I
was giving her a diaper change, I did see her genitals and her bottom.” Henninger said in
the course of changing K.F.’s diaper, she did not notice any diaper rash, bruises, or
vaginal tears. Henninger’s testimony did not suggest that she conducted a detailed
physical examination of K.F.
29.

B. Proposed Testimony of Father’s Three Ex-Wives
Mother next argues, in one sentence, that the court erred in excluding father’s exwives as witnesses. This issue was also discussed on the first day of the contested
hearing, when the court heard the parties’ in limine motions. Mother sought to call
father’s three ex-wives as witnesses. Mother’s counsel stated, as his offer of proof, that
the testimony of the three ex-wives was relevant to show mother’s state of mind when
she left the state. Mother’s counsel noted that various third parties had alerted mother
that these ex-wives had suffered abuse inflicted by father. Mother’s counsel stated:
“[M]y client was aware of prior abuse because other people told her that [father] had
abused this person, this person, this person.” The court excluded the proffered witnesses
as they had not provided any information to mother that would affect her state of mind,
nor were they aware of mother’s state of mind. In contrast to her counsel’s offer of proof
as to the relevancy of the ex-wives’ respective testimony, mother now simply contends:
“These testimonies are relevant to disclose the severity of [father’s] abuse as it relates to
my defense.” Mother has established neither abuse of discretion on the court’s part in
excluding these witnesses, nor prejudice arising from the court’s ruling. Accordingly, we
reject her claim in this regard.
C. Mediator Trent Tilby’s Custody Evaluation Report
Mother argues, in a difficult to understand paragraph, that the court erred in
excluding the custody evaluation report submitted by Family Court Services’ Evaluator
Trent Tilby. Mother’s contention has no merit. During the contested hearing, the trial
court noted it expected Trent Tilby would be called as a witness.6 However, father’s
counsel told the court that father had not been “able to secure [Tilby] as a witness” at the
6

Tilby was the family court services evaluator who conducted a custody evaluation
and submitted a report and recommendation to the court; mother had objected to Tilby’s
recommendation and report; the court adopted Tilby’s recommendation in a custody
order pending a contested hearing on the matter.
30.

contested hearing, because father “was unable to pay his witness fee.” Father’s counsel
proposed the parties could stipulate to admission of Tilby’s report. Mother’s counsel
declined the invitation, stating, “We’re not going to stipulate to that.” The matter again
came up later in the proceeding; mother’s counsel again declined to stipulate to
admission of Tilby’s report. The record reveals no error on the part of the court
regarding the admission or exclusion of Tilby’s report. Had mother stipulated to
admission of the report into the evidence, the court would have received it.
D. A udio Recording ofInvestigator Cristina Magana’s Interview ofMother
Mother next complains, in two sentences, that the court erred in excluding the
audio recording of Investigator Cristina Magana’s interview of mother in Oklahoma,
because the audio recording was necessary to “ensure the integrity of the [interview
transcript].” This contention has no merit.
In cross-examining Investigator Magana, father’s counsel sought to introduce into
evidence a transcript of Magana’s interview of mother on October 18, 2016, in Oklahoma
(after mother’s arrest there). Mother’s counsel said he had no objection to admission of
the transcript into evidence. Mother’s counsel further stipulated the transcript was a fair
and accurate transcription of Magana’s interview of mother on October 18, 2016, in
Oklahoma. Subsequently, mother’s counsel stated: “If the transcript is in, I would like
the audio to be in if the Court would like to listen to the conversation.” The court
responded: “I would prefer to read it actually.” Mother’s counsel responded: “Okay.”
Mother’s counsel then stated he nonetheless wanted to admit the audio recording of the
interview. Specifically, he said: “I want to make sure there are no mistakes in the
transcript. That’s all.” Mother’s counsel added he had no objection to admission of the
transcript into evidence, but if any “problem with the transcript” came to light, he would
bring it to the court’s attention. The court said, “[o]kay,” and added that either counsel
could raise “any issues with the transcript and/or tape” with the court.

31.

Mother now argues the court erred in refusing to admit the audio recording of
Magana’s interview with mother in Oklahoma for purposes of “ensuring the integrity” of
the transcript. In light of the record set forth above, mother has established neither error
on the court’s part in this regard, nor prejudice.
E. Child Abduction and Judicial Bias
(1)

Child Abduction

Mother appears to take issue with the court’s reference, in its statement of
decision, to child abduction. Mother’s argument is disjointed, includes multiple
scattershot points (some of which bear no relationship to others), and is unsupported by
appropriate legal citations. Accordingly, we reject this argument as improperly raised
and thereby waived. (See Yield Dynamics, Inc. v. TEA Systems Corp. (2007) 154
Cal.App.4th 547, 557 [appellants have the burden to demonstrate error, provide adequate
citation to the record, and provide reasoned argument with citation to supporting legal
authorities!; Cahill v. San Diego Gas & Electric Co. (2011) 194 Cal.App.4th 939, 956
[‘“The absence of cogent legal argument or citation to authority allows this court to treat
the contention as waived.’”]; People v. Stanley (1995) 10 Cal.4th 764, 793 [a brief must
contain reasoned argument and legal authority to support its contentions or the court may
treat the claim as waived]; Foreman & Clark Corp. v. Fallon (1971) 3 Cal.3d 875, 881
[where a brief lacks reasoned analysis, we decline to reach the merits of any claimed
error].)
In any event, to the extent mother is challenging the family court’s finding that she
violated court orders by moving the child’s residence out of Stanislaus County and/or by
failing to bring the child back to California as of June 15, 2016, her claim has no merit.
Mother essentially argues the family court’s finding to this effect is not supported by
substantial evidence. (See Chalmers v. Hirschkop (2013) 213 Cal.App.4th 289, 300 [trial
court’s factual findings are reviewed for substantial evidence].)

32.

The family court noted in its statement of decision: “Even if it were found that
[mother] had not been properly served with the emergency order that she not remove the
child from Stanislaus County, she further engaged in child abduction when she did not
return the child to Stanislaus County by June 15, 2016, ran from law enforcement and
was finally taken in to custody four months later and the child was returned in the
protective custody of the District Attorney’s Child Abduction Unit.” The court’s findings
are amply supported by the record.7
(2)

Judicial Bias

Mother supplements her argument that the court improperly found she had
violated court orders with the contention that the court was biased against her. Mother
suggests the court was biased because the court made evidentiary rulings in favor of
father; the court made a disparaging remark toward mother’s counsel; the court noted in

7

In challenging the court’s factual finding that mother kept the child out of state in
violation of court orders, mother states the court improperly granted legal and physical
custody to father on June 15, 2016, because father had never submitted proof of
completion of a “batterers’ course” or other evidence of rehabilitation on account of
having committed domestic violence, to the court. (See Fam. Code, § 3044 [establishing
rebuttable presumption against granting custody to persons found to have perpetrated
domestic violence].) We cannot speak to that issue, however, because the reporter’s
transcript of the June 15, 2016 hearing is not included in the record on appeal. Without a
reporter’s transcript of the relevant hearing, we must presume the court made sufficient
findings to support its decision. (Ehrler v. Ehrler (1981) 126 Cal.App.3d 147, 154.)
Additionally, we must conclusively presume the court’s findings were sufficiently
supported. {Ibid.) On the present record, we find nothing to suggest otherwise. On the
contrary, there are multiple indications in the record that father had completed a 52-week
batterers’ program and that the information was known to the court. Mother’s own
operative April 4, 2017 RFO stated that father completed a 52-week batterers’ program
on July 13, 2016. This would suggest that on June 15, 2016, when the court granted sole
legal and physical custody of K.F. to father, the court could reasonably have concluded
that father had substantially completed the course and had provided sufficient proof of
rehabilitation. The family court services evaluator’s report and recommendation, which
triggered the instant contested hearing, also confirmed that father had completed a 52week batterer’s program.
33.

its statement of decision that mother’s expert witness on domestic violence provided no
testimony to the effect that “a victim might have an ongoing response to [triggering
stimuli] for a period of four months”; and the court directed a few questions to Magana
when she was on the witness stand.
Canon 3B(5) of the California Code of Judicial Ethics provides a judge must
“perform judicial duties without bias or prejudice” and should not, by words or conduct,
manifest bias or prejudice. The Due Process Clause entitles an individual to an impartial
and disinterested tribunal in both civil and criminal cases. (Marshall v. Jerrico, Inc.
(1980) 446 U.S. 238, 242-243; Offutt v. United States (1954) 348 U.S. 11, 14.) Bias has
most often been found to exist when the judge ‘“has a direct, personal, substantial
pecuniary interest in reaching a conclusion against [one of the litigants].”’ (Crater v.
Galaza (9th Cir. 2007) 491 F.3d 1119, 1131; Today’s Fresh Start, Inc. v. Los Angeles
County Office of Education (2013) 57 Cal.4th 197, 214 (Fresh Start) [discussing bar
against financially interested adjudicators], disapproved on other grounds by People v.
Freeman (2010) 47 Cal.4th 993, 1006, fn. 4.) “Absent a financial interest, adjudicators
are presumed impartial. [Citations.] To show nonfinancial bias sufficient to violate due
process, a party must demonstrate actual bias or circumstances

i a

in which experience

teaches that the probability of actual bias on the part of the judge or decisionmaker is too
high to be constitutionally tolerable.

« 5

[Citation.] The test is an objective one.

[Citations.] While the ‘degree or kind of interest... sufficient to disqualify a judge from
sitting “cannot be defined with precision” ’ [citation], due process violations generally
are confined to ‘the exceptional case presenting extreme facts’ [citation].” (Fresh Start,
supra, 57 Cal.4th at p. 219.)
Mother’s bare assertion that the court was biased against mother because it made
some evidentiary rulings in favor of Father is not persuasive. (See Brown v. American
Bicycle Group, LLC (2014) 224 Cal.App.4th 665, 674 [“mere fact” of court’s adverse

34.

rulings, even if rulings were erroneous, “does not indicate an appearance of bias, much
less demonstrate actual bias”].)
Mother next argues the court was biased against her because at one point during
the contested hearing, the court, in response to a phrase used by mother’s counsel,
remarked: “The child didn’t leave [the state] with [mother]. The child was taken by
[mother].” We are not persuaded the court’s admonishment to mother’s counsel to use
more precise phrasing reflected an appearance of bias, much less actual bias, on the part
of the court. (See People v. Snow (2003) 30 Cal.4th 43, 78 [our role on appeal is not to
decide “ ‘whether some comments would have been better left unsaid’

“ ‘[r]ather, we

must determine whether the judge’s behavior was so prejudicial’ ” that it undermined the
fairness of the proceeding].)
Mother’s complaint that the court’s observation, in the statement of decision, that
mother’s expert witness on domestic violence provided no testimony to the effect that “a
victim might have an ongoing response to [triggering stimuli] for a period of four
months,” is similarly unavailing. The court was referring to mother’s argument that she
moved out of state and stayed away, with K.F., from May 2016 until her arrest in October
2016, because of threatening communications from father prior to her departure. Mother
does not argue the court’s statement was an incorrect characterization of the record;
rather, she argues the court’s statement reflects bias against mother because the point
made by the court was not raised by father. The court’s correct, if harshly worded,
characterization of the record cannot be said to reflect bias.
Finally, mother argues the court improperly directed a few questions at a witness
(namely, Investigator Magana), reflecting a bias against mother. Preliminarily, mother
has waived any challenge to the court’s limited questioning of Magana because mother
did not object below. {People v. Corrigan (1957) 48 Cal.2d 551, 556 [“It is settled that a
judge’s examination of a witness may not be assigned as error on appeal where no
objection was made when the questioning occurred.”]; People v. Raviart (2001) 93
35.

Cal.App.4th 258, 269 [appellant waived claim of error where, “despite his contention that
the trial court ‘consistently displayed a bias in favor of the prosecution,’” appellant
“never objected to the trial court’s participation in the examination of witnesses”].)
Furthermore, we have reviewed the record and find the court did nothing
improper. Both parties were fully represented by counsel and the court did not assume
the role of father’s attorney. Rather, the court asked a few follow-up questions of its own
when it felt trial counsel had not fully elicited the information that would enable it to
decide the case. (See People v. Santana (2000) 80 Cal.App.4th 1194, 1206-1207 [within
reasonable limits, the court has a duty to see that justice is done and to bring out facts
relevant to the ultimate determination].) “ ‘ “[I]t has been repeatedly held that if the
judge desires to be further informed on certain points mentioned in the testimony it is
entirely proper for him to ask proper questions for the purpose of developing all the facts
in regard to them. Considerable latitude is allowed the judge in this respect as long as a
fair trial is indicated [to both parties]. Courts are established to discover where lies the
truth when issues are contested, and the final responsibility to see that justice is done rests
with the judge.” ’ ” (Conservatorship of Pamela J. (2005) 133 Cal.App.4th 807, 827; see
Evid. Code, § 775.) Here, the court was the entity that had to weigh the facts and make
determinations about the child’s best interests. (Conservatorship of Pamela

supra, at

p. 827 [“The authority of the trial judge to question witnesses not only applies to cases
tried to a jury but also to the court sitting as the fact finder.”].) The court’s questioning
was not belabored or partisan. We see nothing in the record supporting the claim that the
questions posed by the court reflected an improper bias against Mother.
F. Court's Alleged Failure to Consider Various Facts Brought Out at Hearing
Mother next appears to argue (in Arguments (4) and (5) of her opening brief) that
the court did not consider various facts that were brought out at the contested hearing.
Mother argues the court “overlooked] [father’s] excessive denials of visitation.” Mother

36.

contends the court overlooked the testimony of Sierra Vista staff member, Jessica Bush,
and visitation records, all of which indicated mother and K.F. enjoyed their visits and had
positive interactions. Mother contends the court did not properly consider the testimony
of Dr. Pham (K.F.’s primary care provider) and other evidence related to a vaginal tear
documented by another provider (Dr. Indu Gupta). Mother argues the court
misinterpreted the evidence on these points.
Mother has pointed to nothing in the record that would support her assertion that
the trial court failed to consider the evidence delineated above. Here, the court was
focused on the evidence and even questioned some of the witnesses. Indeed, the court’s
statement of decision addressed many of the points that mother claims were overlooked.
Mother’s complaint seems to be that the family court did not give some categories of
evidence the weight she thought they deserved. However, the credibility and weight of
the evidence is the province of the trial court, not the appellate court. (Valero v. Board of
Retirement of Tulare County Employees’ Assn. (2012) 205 Cal.App.4th 960, 965 [the trial
court, as the trier of fact, is the exclusive judge of the credibility of the evidence and can
reject evidence as unworthy of credence]; Cahill v. San Diego Gas & Electric Co., supra,
194 Cal.App.4th at pp. 957-958 [on appeal, we may not reweigh the evidence or evaluate
the credibility of witnesses].) No error has been demonstrated with regard to the court’s
assessment of the evidence.
To the extent Mother is claiming the factual findings underlying the court’s
decision—which maintained sole legal custody and sole physical custody with father and
supervised visitation with mother—were not supported by substantial evidence, we reject
the argument. Mother has failed to establish that the factual findings underlying the
court’s decision were not supported by substantial evidence. (See Chalmers v.
Hirschkop, supra, 213 Cal.App.4th at p. 300 [trial court’s factual findings are reviewed
for substantial evidence]; People v. Davis (1996) 50 Cal.App.4th 168, 172 [appellant
must affirmatively show error].)
37.

G. Court’s Alleged Failure to Consider Child’s Best Interests
Finally, mother complains the court’s decision conflicts with the policies
articulated in section 3020, subdivision (b). Section 3020, subdivision (b) declares the
public policy of assuring that children have frequent and continuing contact with both
parents after parents end their relationship.
44 4 44

An application for modification of an award of custody is addressed to the

sound legal discretion of the trial court, and its discretion will not be disturbed on appeal
unless the record presents a clear case of an abuse of that discretion.” ’ ” (In re Marriage
ofMcLoren (1988) 202 Cal.App.3d 108, 111-112 (McLoren); see Montenegro v. Diaz
(2001) 26 Cal.4th 249, 255 [custody and visitation orders are subject to the “ ‘deferential
abuse of discretion test’ ” and must be upheld if “ ‘correct on any basis, regardless of
whether such basis was actually invoked’ ”].) Generally, a trial court abuses its
discretion “only if there is no reasonable basis upon which the court could conclude that
its decision advanced the best interests of the child.” (In re Marriage of Melville (2004)
122 Cal.App.4th 601,610.)
44 4

The burden is on the party complaining to establish an abuse of discretion, and

unless a clear case of abuse is shown and unless there has been a miscarriage of justice a
reviewing court will not substitute its opinion and thereby divest the trial court of its
discretionary power.’ ” (Denham v. Superior Court (1970) 2 Cal.3d 557, 566; Rich v.
Thatcher (2011) 200 Cal.App.4th 1176, 1182.) To establish an abuse of discretion, the
appellant must demonstrate that the court exceeded the bounds of reason. It is not
enough to argue that a different order would also have been within the range of reason.
(Denham, at p. 566.) And it is a “settled rule of appellate review [that] a trial court’s
order/judgment is presumed to be correct, error is never presumed, and the appealing
party must affirmatively demonstrate error on the face of the record.” (People v. Davis,
supra, 50 Cal.App.4th at p. 172.)

38.

In evaluating the factual basis for an exercise of discretion, we also give broad
deference to the trial judge. (Rich v. Thatcher, supra, 200 Cal.App.4th at p. 1182.) The
trial court’s factual findings must be upheld if supported by substantial evidence. (See,
e.g., Osgood v. London (2005) 127 Cal.App.4th 425, 435-436; In re Marriage ofEdlund
Hales (1998) 66 Cal.App.4th 1454, 1473-1474.)
“Under California’s statutory scheme governing child custody and visitation
determinations, the overarching concern is the best interest of the child. The court...
ha[s] ‘the widest discretion to choose a parenting plan that is in the best interest of the
child.’ (Fam. Code, § 3040, subd. [(c)].)”8 (Montenegro v. Diaz, supra, 26 Cal.4th at p.
255, fn. omitted.) The “best interest of the child” includes the child’s “health, safety, and
welfare.” (§ 3020, subds. (a), (c).) We must uphold a court’s custody order if it can be
“reasonably concluded that the order ... advance[s] the ‘best interest’ of the child.” (In re
Marriage of Burgess (1996) 13 Cal.4th 25, 32 (Burgess).)9
Mother complains that the court’s decision conflicts with the policies articulated in
section 3020, subdivision (b). Section 3020, subdivision (b) declares the public policy of
assuring that children have frequent and continuing contact with both parents after
parents end their relationship.10 Mother argues the court’s decision was not in the best
8

Undesignated statutory references are to the Family Code.

9

We will assume, based on the wording and substance of the court’s statement of
decision, that the operative custody order, i.e., the October 12, 2017 order adopting the
recommendation of the family court services evaluator, was not intended by the court to
be a “permanent” order, and that mother was not therefore required to make a showing of
a “change in circumstances” in order to obtain modification of it. (See Burgess, supra,
13 Cal.4th at pp. 37-38 [party seeking to modify a permanent custody order can do so
only if he or she demonstrates a significant change of circumstances justifying a
modification].) Indeed, the family court services evaluator himself made clear in his
report that his recommendation was not intended as a final resolution, since a number of
issues needed further exploration as in, for example, a long cause hearing.
10
“The Legislature finds and declares that it is the public policy of this state to
ensure that children have frequent and continuing contact with both parents after the
parents have separated or dissolved their marriage, or ended their relationship, and to
39.

interests of the child because it contravened the policy set forth in section 3020,
subdivision (b). More specifically, mother complains that supervised visitation mandated
by the court was too limited and was confusing for the child; the court did not consider
the emotional bond between mother and the child; and the supervised visitation mandated
by the court precluded the child from bonding with her maternal family. Mother suggests
the court’s decision resulted in a de facto termination of her parental rights.
Mother’s argument is unavailing. “The policy of... section 3020 in favor of
‘frequent and continuous contact’ does not so constrain the trial court’s broad discretion
to determine, in light of all the circumstances, what custody arrangement serves the ‘best
interest’ of minor children. fl[] The Family Code specifically refrains from establishing a
preference or presumption in favor of any arrangement for custody and visitation. Thus,
... section 3040, subdivision [(c)], provides: ‘This section establishes neither a preference
nor a presumption for or against joint legal custody, joint physical custody, or sole
custody, but allows the court and the family the widest discretion to choose a parenting
plan that is in the best interest of the child.’ (Italics added.) Similarly, although ...
section 3020 refers to ‘frequent and continuous contact,’ it does not purport to define the
phrase ‘frequent and continuous’ or to specify a preference for any particular form of
‘contact.’ Nor does it include any specific means of effecting the policy, apart from
‘encouraging] parents to share the rights and responsibilities of child rearing.

3 5?

(Burgess, supra, 13 Cal.4th at pp. 34-35.) “Thus, in exercising its discretion, the trial
court must duly evaluate all the important policy considerations at issue in any change of
custody and make its ultimate ruling based upon a determination of the best interests of
the child.” (McLoren, supra, 202 Cal.App.3d at p. 113.) We see no evidence that the
court failed to do so here.
encourage parents to share the rights and responsibilities of child rearing in order to effect
this policy, except when the contact would not be in the best interests of the child, as
provided in ... Section 3011.” (§ 3020, subd. (b).)
40.

Mother argues the decision was not in the child’s best interests because of father’s
history of domestic violence. (See § 3020, subd. 2(A)(ii) [court must consider a parent’s
history of abuse toward other parent in assessing best interests of child for purposes of
custody determination].) The court addressed this consideration, noting it was “fully
aware of the substantial issues that [father] presents.”11 However, the court grappled
with balancing the issues father presented with the risk posed to the child by mother’s
defiance of, and obvious disregard for, court orders. The court was extremely concerned
about the harm suffered by the child as a result of mother’s decision to defy court orders
in moving out of state with the child, despite the existence of a court order granting father
visitation rights. As a result of mother’s conduct, not only was the child’s contact with
father disrupted, but father had no information regarding the child’s whereabouts and
condition for several months. It was only when father approached law enforcement
authorities, and the authorities took action, that the child was returned to California.
However, the process was difficult, disruptive, and risky, with K.F., who was only two
years old at the time, spending several days in foster care before being handed off to law
enforcement representatives from Stanislaus County. We detect no abuse of discretion in
the court’s decision. (See § 3040, subd. (d) [court has “the widest discretion to choose a
parenting plan that is in the best interest of the child”]; Montenegro v. Diaz, supra, 26
Cal.4th at p. 255 [both our courts and Legislature have repeatedly recognized a family
li

Mother makes unsupported statements to the effect that father had never submitted
proof of domestic violence rehabilitation to the court and that the court’s decision
contravened the presumption against awarding custody to persons who had perpetrated
domestic violence, set forth in section 3044. However, the court first granted legal and
physical custody to father on June 15, 2016, when the application of the presumption
would have been addressed. As explained in footnote 4, ante, the reporter’s transcript of
the June 15, 2016 hearing is not included in the record on appeal. Without a reporter’s
transcript of the relevant hearing, we must presume the court made sufficient findings to
support its decision. (Ehrler v. Ehrler, supra, 126 Cal.App.3d at p. 154.) Indeed, there
are multiple indications in the record that father had completed a 52-week batterers’
program and that the information was known to the court. (See fn. 4, ante.)
41.

court’s broad discretion in protecting the right of children in dissolution proceedings, and
that “the overarching concern is the best interest of the child”].)
Mother further suggests the court’s decision was not in K.F.’s best interests given
evidence indicating K.F. had suffered a vaginal tear. Dr. Indu Gupta documented a
“well-healed vaginal tear on left inferior margin” but “[otherwise1 normal female external
genitalia.” However, Dr. Gupta did not reach definitive conclusions about when or how
the tear occurred and did not testify at the contested hearing. Dr. Pham, K.F.’s primary
care provider, testified at the hearing but did not appear to adopt Dr. Gupta’s finding. Dr.
Pham testified she had examined K.F. as part of a physical during the week just prior to
her appearance in court. Dr. Pham testified she had no concerns about K.F.’s health,
development, and well-being. The court factored the concern about the vaginal tear in its
decision, noting that the evidence regarding this condition was “inconclusive.” (§ 3022
[“[t]he court may, during the pendency of a [marital dissolution] proceeding or at any
time thereafter, make an order for the custody of a child during minority that seems
necessary or proper”].)
An appellate tribunal is not authorized to retry the issue of custody, nor to
substitute its judgment for that of the trier of facts. Only upon a clear and convincing
showing of abuse of discretion will the order of the trial court in such matters be
disturbed on appeal. Where minds may reasonably differ, it is the trial judge’s discretion
and not that of the appellate court which must control.

59 5 55

('Catherine D. v. Dennis B.

(1990) 220 Cal.App.3d 922, 931.) In light of record as a whole, we cannot say the
court’s decision to maintain sole legal custody and sole physical custody with father, and
to grant supervised visitation to mother (who had relocated to the State of Utah), was an
abuse of discretion or miscarriage of justice.12
12

Both mother and father have attached various documents to their respective briefs.
A party may only attach exhibits which are copies of documents in the appellate record.
(Cal. Rules of Court, rule 8.204(d).) A party may only augment the record by timely
42.

